<html>
<title> - OVERSIGHT OF THE SMITHSONIAN INSTITUTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








                OVERSIGHT OF THE SMITHSONIAN INSTITUTION

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2019

                               __________

      Printed for the use of the Committee on House Administration








              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       Available on the Internet:
           https://govinfo.gov/committee/house-administration 
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
38-520                     WASHINGTON : 2019 
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 18, 2019

                                                                   Page
Oversight of the Smithsonian Institution.........................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     3
Hon. Rodney Davis, Ranking Member................................     5
    Prepared statement of Ranking Member Davis...................     7

                               WITNESSES

Mr. Lonnie G. Bunch, III, Secretary, Smithsonian Institution.....    10
    Prepared statement of Secretary Bunch........................    13
Ms. Cathy L. Helm, Inspector General, Smithsonian Institution....    17
    Prepared statement of Ms. Helm...............................    19

                        QUESTIONS FOR THE RECORD

Mr. Lonnie G. Bunch, III, Secretary, Smithsonian Institution, 
  responses......................................................    38
Ms. Cathy L. Helm, Inspector General, Smithsonian Institution, 
  responses......................................................    55

 
                OVERSIGHT OF THE SMITHSONIAN INSTITUTION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 9:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Davis of Illinois, Walker, and 
Loudermilk.
    Staff Present: Sean Jones, Legislative Clerk; Daniel 
Taylor, General Counsel; David Tucker, Senior Counsel and 
Parliamentarian; Lisa Sherman, Chief of Staff for Mrs. Davis of 
California; Matthew Schlesinger, Oversight Counsel; Evan 
Dorner, Legislative Assistant for Mr. Aguilar; Lauren Doney, 
Communications Director and Deputy Chief of Staff for Mr. 
Raskin; Kyle Parker, Senior Policy Advisor for Mr. Butterfield; 
Veleter Mazyck, Chief of Staff for Ms. Fudge; Mary Sue Englund, 
Minority Director of Administration and Operations; Cole 
Felder, Minority General Counsel; Jennifer Daulby, Minority 
Staff Director; Timothy Monahan, Minority Director, Oversight; 
and Nicholas Crocker, Minority Professional Staff.
    The Chairperson. Well, I understand the Ranking Member is 
on his way, and since we have kind of a tight schedule and we 
have a quorum I will start and he can give his opening 
statement.
    The Committee will come to order. We want to welcome 
everyone on this hearing providing oversight to the Smithsonian 
Institution.
    In 1836, Congress accepted a bequest from James Smithson, 
an English scientist who had never visited the United States 
but nevertheless decided to leave his substantial fortune to 
our young country for the increase and diffusion of knowledge. 
Ten years later, in 1846, the Smithsonian Institution was 
formerly established by Congress.
    In the 173 years since, the Smithsonian has grown to a 
complex of 19 museums, numerous research centers, a library 
system, a network of more than 200 affiliate organizations, 
archives, and the National Zoo.
    Today, the Smithsonian serves as steward to more than 154 
million artifacts, works of art, and specimens. Visitors from 
across the country and around the world flock to see this broad 
collection, and in 2018 alone, there were nearly 29 million 
visits to the Smithsonian. The Smithsonian also works with 
entities around the world to advance critical scientific 
discovery and research.
    Earlier this year, thanks in large part to the Smithsonian 
Astrophysical Observatory's leadership, the first ever image of 
a black hole was unveiled to the public. I was so honored to 
meet the scientists affiliated with the Smithsonian who were 
responsible for that photo.
    Just last week, we learned that Smithsonian researchers in 
the Amazon discovered a new species of electric eel described 
as the most powerful ever.
    The Smithsonian Institution, however, is not without 
challenges as it continues to work through the Strategic Plan 
we discussed back in our 2017 Committee hearing. These 
challenges need to be addressed for the Smithsonian to carry 
out its mission to increase and diffuse knowledge and include a 
deferred maintenance backlog approaching nearly $1 billion; a 
shortage of storage space for the Institution's ever-growing 
collection; insufficient diversity among Smithsonian staff and 
leadership; and inadequate information technology security. The 
Smithsonian is also in the midst of a large-scale, multi-phase 
renovation of the National Air and Space Museum.
    These challenges exist in the context of a transition 
period for the Smithsonian, which, as of June this year, has a 
new Secretary. We are honored to have Secretary Bunch join us 
this morning for his first appearance before Congress as 
Secretary.
    In addition to these challenges, there are a number of 
Congressional proposals for new museums at various levels of 
maturity. These proposals include H.R. 1980, Representative 
Carolyn Maloney's Smithsonian Women's History Museum Act, and 
H.R. 2420, Representative Jose Serrano's National Museum of the 
American Latino Act. These proposals would establish an 
American Museum of Women's History and a National Museum of 
American Latino History, respectively.
    Similar to the authorizing legislation for the National 
Museum of African American History and Culture, these proposals 
contemplate a combination of federally appropriated and 
privately raised funds to finance the construction of the 
museum building and direct the Smithsonian to appoint a 
director to manage the museum. This hearing will inform the 
committee consideration of these proposals as well.
    Before I formerly introduce our witnesses, I would like to 
recognize our Ranking Member Davis for his opening statement 
and any comments he would like to offer on the Smithsonian 
Institution oversight hearing.
    Welcome, Mr. Davis.
    [The statement of The Chairperson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Illinois. Thank you, Chairperson Lofgren, for 
holding this hearing, and welcome to both witnesses today who 
are testifying for the first time before our Committee.
    It is not that scary, is it? We certainly hope you will 
come back.
    I do want to thank you, Secretary Bunch, for bringing the 
cast of the hands of one of my most famous constituents in 
Springfield, Illinois. In some places in Illinois, Abe Lincoln 
might still be able to vote, but not in Springfield.
    We have before us an opportunity to hear from you, and I am 
really honored that you have become Secretary, and I certainly 
look forward to working with you. You have already scored a big 
success with the Apollo 50 Go for the Moon event on The Mall in 
July. It was a well-deserved tribute to the Apollo 11 mission 
and an inspirational recognition of a proud moment in our 
Nation's history.
    Since its establishment in 1846, the Smithsonian has become 
the world's largest museum education and research complex. The 
Institution preserves and celebrates our Nation's cultural 
heritage and advances scientific discovery in multiple 
disciplines.
    On behalf of the American people, Congress, the Board of 
Regents, and the Smithsonian management, you have a 
responsibility to ensure the continued success of the 
Institution for future generations.
    The Smithsonian has a broad mission, the increase and 
diffusion of knowledge, and a bold Strategic Plan to support 
that mission. The critical goal in the plan is to reach 1 
billion people a year through a digital first strategy, making 
the Smithsonian's rich collections, first class research, and 
empowering educational materials accessible to Americans across 
the country, not just those who visit Washington, D.C. That 
needs to be a fundamental part of the Institution's strategy 
moving forward.
    I am particularly pleased that my former boss and my 
mentor, Congressman John Shimkus, serves on the Board of 
Regents. His experience as a former educator allows him to 
provide the Smithsonian with unique perspectives to help 
advance the strategy.
    I look forward to hearing from you, Secretary Bunch, on 
your vision for achieving this goal and the Institution's other 
priorities.
    As a large and complex organization with 19 museums and the 
National Zoo, multiple research centers, and an international 
presence, the Smithsonian also faces significant risks and 
challenges.
    First to mind is the Smithsonian's current $900 million 
renovation of one of the world's most visited museums, happened 
to be my twin boys favorite, the National Air and Space 
facility on The National Mall. That is being done while a 
portion of it remains open, thankfully, to the visiting public.
    Additionally, an increasing maintenance backlog that is 
just over a billion dollars. Furthermore, inadequate storage 
space for collections. And finally reports have identified 
much-needed IT security improvements.
    I welcome the Inspector General's comments on these and 
other risks facing the Institution and look forward to 
discussing the Smithsonian's approach to addressing them.
    In addition, there are several proposals for new 
Smithsonian museums. Establishing a new museum is a complex 
undertaking and should be carefully considered to ensure its 
success. With his experience as a founding director of the 
National Museum of African American History and Culture, we are 
hopeful that Secretary Bunch can provide the committee with 
insight into the issues surrounding the establishment of new 
museums and the keys to success in doing so.
    Finally, Secretary Bunch, I am excited about the 
possibility of your visiting Springfield, Illinois, in my 
district, which happens to be the site of the 1908 race riots 
and the birthplace of the NAACP. The community would love to 
have you view the significant artifacts that are being 
excavated right now and tour the site, which the Department of 
the Interior just determined was suitable for designation as a 
national historic monument.
    So thank you. I look forward to hearing from our witness 
today.
    And I yield back, Madam Chairperson.
    [The statement of Mr. Davis of Illinois follows:]
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. The gentleman yields back.
    Other Members' opening statements will be put into the 
record by unanimous consent.
    I would like to note that we have in our audience today 
Congresswoman Carolyn Maloney, who is the author of the Women's 
History Museum bill, which now has a sufficient number of 
cosponsors to actually pass the House.
    So welcome, Representative Maloney.
    I would like to welcome our witnesses now. Joining us this 
morning are the Secretary of the Smithsonian, Lonnie Bunch, and 
the Smithsonian Inspector General, Cathy Helm. Secretary Bunch 
is the 14th Secretary of the Smithsonian, and I would like to 
highlight, as has been mentioned by the Ranking Member, the 
first African American to lead the Institution. He assumed the 
role of Secretary in June 2019.
    While Secretary Bunch is new to his current position, he is 
certainly not new to the Smithsonian. From 2005 until this 
year, he served as Director of the Smithsonian's National 
Museum of African American History and Culture, a spectacular 
museum, and if people have not yet visited it, I highly 
recommend that you do so.
    When he started that job in 2005, Mr. Bunch had one staff 
member, no collections, and no dedicated museum site. Thanks to 
his leadership, since the National Museum of African American 
History and Culture opened in 2016, it has welcomed more than 5 
million visitors. It has compiled a collection of 40,000 
objects that are housed in the first green building on The 
National Mall.
    He has served as the President of the Chicago Historical 
Society, as Associate Director for the curatorial affairs at 
the National Museum of American History during his career.
    He is also an accomplished author, having written on topics 
ranging from the American Presidency to diversity in museum 
management. His most recent work, ``A Fool's Errand,'' is about 
his experience creating the African American History Museum, 
really a crowning glory of an achievement for you, sir.
    We are so honored, after the hearing, he has brought some 
artifacts from the Smithsonian for us to look at which are 
really something special. So please do take the time after the 
hearing to take a look at them.
    Cathy Helm has been serving as Inspector General for the 
Smithsonian Institution since 2014. She is responsible for 
conducting audits and investigations, keeping the Board of 
Regents and Congress informed about problems and deficiencies, 
promoting efficiency and effectiveness within the Smithsonian, 
and preventing and detecting fraud, waste, and abuse.
    Inspector General Helm also serves as the Vice Chair of the 
audit committee for the Council of Inspector Generals on 
Integrity and Efficiency and is Chair of the Small/Unique OIG 
Group, a group of inspector generals who meet quarterly to 
exchange ideas.
    Before she joined the Smithsonian, Inspector General Helm 
worked as the Deputy Inspector General at the U.S. Government 
Accountability Office, where she helped lead audit and 
investigative programs.
    Welcome to both of today's witnesses, and we thank you so 
much for coming.
    At this time I would ask unanimous consent that all Members 
have five legislative days to revise and extend their remarks, 
and all written statements may be made part of the record. And 
without objection, that is so ordered.
    I will remind the witnesses that your entire statement will 
be made part of the record. We ask that your testimony 
summarize your written statement at about five minutes. When 
the five minutes is nearing up, the little light will turn 
yellow, and when it is red, it means that your five minutes are 
up, we would ask you to wind it up.
    The record will remain open for at least five days for 
additional materials or questions to be submitted to you.
    So now we will turn to you, Secretary Bunch. Welcome. We 
are eager to hear your testimony.

 STATEMENTS OF MR. LONNIE G. BUNCH III, SECRETARY, SMITHSONIAN 
INSTITUTION, WASHINGTON, D.C.; AND MS. CATHY L. HELM, INSPECTOR 
       GENERAL, SMITHSONIAN INSTITUTION, WASHINGTON, D.C.

                STATEMENT OF LONNIE G. BUNCH III

    Mr. Bunch. Thank you so much, Chairperson Lofgren, Ranking 
Member Davis, and Members of the Committee. Thank you for this 
opportunity to testify today.
    My tenure as the 14th Secretary of the Smithsonian has been 
only a few short months, but as you have mentioned, my 
relationship with this institution goes back to when I was a 
26-year-old kid. I was so honored to serve as the founding 
director of the National Museum of African American History and 
Culture, and I am more than pleased, in fact, I am humbled, to 
assume the role as Secretary of this institution, the 
institution I love so much.
    The Smithsonian greatly appreciates the continued support 
of Congress, the administration, and the American people, and 
we take seriously the crucial role we play in advancing the 
civic, educational, and scientific life of this Nation. Our 
goal is to reach, in meaningful ways, at least 1 billion people 
worldwide.
    Nothing replaces the authentic artifacts we have on 
display, but we need to reach millions who cannot visit us in 
person, using all the digital tools available to us. I am 
committed to achieving this goal while protecting and securing 
our digital assets and those of the users of our technology.
    Cultural institutions are uniquely equipped to inspire, and 
we magnify that ability when we truly reflect the rich tapestry 
of humanity. The Smithsonian is committed to increasing, 
attracting, and developing a diverse and talented workforce. I 
am pleased that Congress has supported the goal of telling more 
expansive and representative stories by shepherding legislation 
that advocates for new museums.
    If Congress deems it in the interest of the American public 
to authorize the Smithsonian to build a new museum and provides 
the necessary additional funds for that purpose and 
appropriates means for a long-term operation of the museum, 
then we will create a museum that exceeds all expectations, a 
new museum that builds on the standards of excellence set by 
the Smithsonian.
    But in the interim, the Institution is committed to making 
every single Smithsonian museum and program more inclusive and 
more representative of the Nation's population.
    It is, as you pointed out, also crucially important that we 
recognize the Smithsonian's pressing infrastructure and 
collection space needs that demand our immediate and ongoing 
attention. We so appreciate the support of Congress in the 
renovation of the National Air and Space Museum. Just as 
important, we are grateful for the ongoing support of 
maintenance needs throughout the Institution.
    Regarding the American Women's History Museum legislation, 
both the House and the Senate bills largely mirror the 
successful model employed by the National Museum of African 
American History and Culture. Both bills call to construct a 
museum with 50 percent Federal and require the Smithsonian to 
raise 50 percent from non-Federal sources.
    Legislation has also been introduced calling to create a 
National Museum of the American Latino in order to showcase the 
life, art, history, and culture of American Latinos and their 
contribution to the United States. This legislation also 
follows the model of a national museum.
    While I do have experience with private fundraising and am 
more than willing to advocate for private funds, it is simply 
impossible to pursue projects of this magnitude without 
explicit appropriations of Federal funding for the projects at 
their very genesis. If authorized and funded by Congress, we 
would be honored to add these museums to the Smithsonian 
family.
    As Congress makes these deliberations, we will work 
diligently to tell a broader, more complete story with our 
resources. An example of this desire is our American Women's 
History Initiative Because of Her Story, which was launched in 
2018. Because of Her Story represents a paradigm shift. It 
allows the entire Smithsonian to wrestle with how issues of 
gender have shaped the American experience. We are grateful to 
Congress for this support.
    We are also so proud to be able to unveil in the fall of 
2021 the first gallery to explore Latino culture to open on The 
National Mall. And we have worked very hard to make sure that 
the Smithsonian Asian Pacific Center, which has served to 
further the inclusion of Asian-Pacific Americans, continues to 
research, build collections, do exhibitions and programs, and 
they, too, are also fundraising for the first gallery dedicated 
to them.
    Our work to increase knowledge is never ending. The 
Institution has been conducting groundbreaking research in 
science in marine and terrestrial environments and 
reintroducing animals from around the world in their national 
habitat.
    Ultimately what I want to do is say that museums are more 
important now than ever because of their ability to serve as 
trusted sources of information. We want the people to see the 
Smithsonian as a tool to help them understand their universe, 
their history, and our shared future in order to live better 
lives.
    It is incumbent upon us as an institution to be a more 
universal resource, one that earns the American people's trust 
and leverages our great convening power to increase our 
relevance.
    Thank you for giving me the opportunity to testify. I am 
happy to answer any and all questions.
    [The statement of Mr. Bunch follows:]
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you very much.
    Now we would hear from you, Ms. Helm.

                   STATEMENT OF CATHY L. HELM

    Ms. Helm. Chairperson Lofgren, Ranking Member Davis, and 
Members of the Committee, thank you for the opportunity to 
discuss the role of the Office of the Inspector General in the 
oversight of the Smithsonian.
    As you know, OIG's mission is to promote the efficiency, 
effectiveness, and integrity of Smithsonian's programs and 
operations. We do this through independent and objective audits 
and investigations. Today my testimony will focus on our work 
related to management challenges in the area of collection 
management, facilities management, and security.
    Collections are at the core of the Smithsonian. Our office 
has done extensive work examining collection stewardship.
    For instance, we reported in 2015 that the Smithsonian 
faces challenges to fully implement the plan that is to ensure 
the proper storage of its collections because of its estimated 
cost, more than $1 billion over 30 years, and the need to 
balance competing demands to fund other capital projects.
    Currently, we are assessing the inventory controls of the 
Smithsonian's newest museum, the National Museum of African 
American History and Culture.
    The Smithsonian also faces challenges in addressing 
deferred maintenance for its facilities because it is spending 
less than the recommended amounts to maintain the condition of 
those facilities. In fiscal year 2017, the Smithsonian had a 
deferred maintenance backlog approaching $1 billion. Deferring 
maintenance can reduce the overall life of facilities and may 
lead to higher costs in the long-term.
    Eventually deferred maintenance requires a major capital 
investment. In fact, the Smithsonian's $650 million capital 
project to revitalize the National Air and Space Museum 
includes more than $250 million of deferred maintenance.
    Security is also a challenge. Information technology 
security is a growing risk for all organizations. Security 
breaches cost money, disrupt operations, and erode public 
trust.
    Each year our office evaluates the effectiveness of 
Smithsonian's information technology security program. While 
the Smithsonian has made steady progress in improving this 
program, it is not yet fully effective.
    In addition, the personnel security program helps to ensure 
that the individuals responsible for Smithsonian's collections, 
security, financial assets, and reputation have the appropriate 
character and conduct to be associated with the Smithsonian.
    We recently reported that individuals received 
preemployment background investigations, but that the 
Smithsonian has no assurance that employees receive the 
appropriate level of post-employment background investigation.
    Moreover, the Smithsonian could have saved a third of its 
program costs in fiscal year 2016 if it had used an automated 
tool to determine the appropriate level of investigation for 
its retail employees.
    We also found that computer network access had been granted 
to individuals who had not received background investigations.
    Finally, in today's world the importance of a skilled, 
well-trained security guard force is more important than ever. 
In a recent report, OIG found that new security guards were 
allowed to graduate from basic training although they had 
missed one or more days of instruction. Moreover, guards only 
had to qualify on their firearms once a year, rather than twice 
a year as recommended by best practices.
    Thank you, Chairperson Lofgren, Ranking Member Davis, and 
Members of the Committee. This concludes my statement, and I am 
happy to respond to any questions you may have.
    [The statement of Ms. Helm follows:]
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you both for your testimony. Now is 
the time for Members to ask questions, and I have a few.
    Secretary Bunch, one of the great things about being new is 
that you are not responsible for any of the problems, all you 
have got to do is solve those that have been identified. I am 
wondering in terms of the cybersecurity issues that have been 
identified, as well as the affirmative action deficits that you 
found, what are your plans to approach those identified issues?
    Mr. Bunch. In terms of cybersecurity, what we really 
appreciate has been the guidance that we have receive from the 
Inspector General.
    This is a high priority for me. We have taken many steps to 
try to make sure that we filled all the holes. We recognize, 
however, that cybersecurity is going to be an ongoing issue, 
and we are committed to having the appropriate level of 
training and the appropriate staff expertise to make sure that 
we can respond to the ongoing challenge.
    My whole career has really been about making sure that a 
diverse array of scholars, educators, employees are allowed to 
help shape an institution and make it better. It is really 
clear to me that the Smithsonian has made amazing strides in my 
time there. But it is still very much a challenge, and I am 
committed to looking at diversity, not just in staff, but on 
the boards that also shape the Smithsonian.
    So ultimately for me, I think that when my tenure is up, 
one of the things I expect is the Smithsonian to have a much 
more diverse leadership and to really be the kind of place that 
mirrors the America we believe in.
    The Chairperson. Thank you for that.
    That leads me to my next question, which is the new museums 
that have been proposed that really reflect the greater 
diversity of our wonderful country. First, the women's museum 
that has so many cosponsors, but also the Latino museum that 
Representative Serrano is supporting and there is also, it is 
not as far along, but a proposal for an Asian American museum.
    I am wondering, what do you think are the next steps that 
we could take as a Congress to move those along? I know that 
there has been substantial fundraising for the women's museum 
and there are efforts underway for the others. I hear your 
testimony that we also need to appropriate funds.
    It seems to me that the way to move this forward is to 
authorize these museums, which then will challenge our 
appropriators to match the private funds that have been raised 
with public funds. Your thoughts on that?
    Mr. Bunch. I think it is important after going through 11 
years of building a national museum, it is really clear that in 
order to move forward, one of the first things we need to do is 
identify what are all the challenges. And some of those are 
about funding and resources. Some of those are about the 
process of how that funding gets released.
    Also it is really the recognition that this is a long-term 
commitment, and that I think that if this is authorized, we 
would then really expect to do what we did with the National 
Museum of African American History and Culture, which would 
have a period of several years to actually move this forward, 
to study what exactly we are talking about, what are the 
collections needs, what are the building needs, what are the 
scholarship needs, so that we would then have a better idea of 
what the cost would be.
    But I think the key is to have that commitment to 
recognizing that it is a challenging endeavor, it is an 
endeavor that challenges the Smithsonian, candidly, but it is 
endeavor with the right support we can do.
    The Chairperson. I think we are very lucky to have someone 
leading the whole institution who actually brought a fabulous 
museum from concept to reality.
    Just one final question. The Smithsonian recently conducted 
a very successful fundraising campaign. It raised $1.88 billion 
in the course of about 8 years. Can any of these private funds 
be used to address the backlog of deferred maintenance? Or what 
will those funds be used for?
    Mr. Bunch. I think a lot of those funds are committed to 
specific things, to educational programs, to supporting some of 
the research initiatives. We will always look at wherever we 
can take resources and put it towards deferred maintenance and 
other issues.
    But as you know, deferred maintenance isn't sexy, and so 
many of the donors are not interested in putting their money in 
that regard, so we have to look to the Federal Government. We 
have to look to be more creative in the kind of partnerships we 
put together that will allow us, ultimately, to do a better job 
of using those funds.
    The Chairperson. Thank you, Mr. Secretary.
    I turn now to the Ranking Member, Mr. Davis, for his 
questions.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    The concern of post-employment background checks, huh? What 
are you hiding, Mr. Secretary? I am more than willing to offer 
up Mr. Aguilar for a test of post-employment background check.
    You okay with that, Pete?
    Mr. Aguilar. Always.
    Mr. Davis of Illinois. Thank you.
    Mr. Secretary, how concerned are you about the size and 
growth of the facilities maintenance backlog and what is your 
strategy to reduce it?
    Mr. Bunch. I am very concerned about this. I think that we 
are looking at prioritizing very clearly in the triage method, 
what are the priorities we have to do? What is it about mission 
critical? What is it that is clearly about public safety, 
safety of the collection?
    So we are doing a better job of making sure we are putting 
what limited resources we have in the priorities that we are 
focusing on. We are also looking at what are creative ways, 
like with the renovation of the Air and Space Museum, that we 
are able to bring funds in that will allow us to get to some of 
those backlogs.
    We are also obviously looking very carefully at some of the 
initiatives that allow us to look at maintenance, like the 
South Mall Master Plan, and looking to see is that the best way 
we can accomplish these things.
    So I am committed to now revisiting this, taking a hard 
look at it, and figuring out what is the best way that we can 
use those limited resources.
    Mr. Davis of Illinois. Great. Thank you.
    The Institution must be perceived as an honest broker and 
apolitical, particularly when Americans remain divided on many 
issues. I have to say after seeing the caption for the portrait 
of Ronald Reagan at the National Portrait Gallery that I had 
some concerns.
    How does the Smithsonian ensure it remains an honest broker 
of that information? And I want to emphasize to you how 
important it is in your new role of being seen as nonpolitical 
and nonpartisan.
    Mr. Bunch. I think it is crucially important to emphasize 
throughout the organization that we are a nonpartisan entity. I 
think the greatest strength of building the National Museum of 
African American History and Culture is that we were seen as 
nonpartisan, that we had support from both sides of the aisle, 
and I continue to work in that regard.
    I think it is crucial to understand that things like label 
copy, we always vet them. We review them through the curators, 
through the directors of the museum. When there are issues that 
go beyond that, they are brought to the secretarial level.
    We are committed to using our research, using our 
scholarship, and that guides what we do, not political 
considerations, but the best evidence that comes from the 
research that we have.
    Mr. Davis of Illinois. Well, thank you. Take a look at the 
Reagan caption again and then we can talk after that.
    You mentioned, Ms. Helm, that the digitization of the 
collections will help improve collections management. Have you 
been able to assess the Smithsonian's digitization plan, 
including the pace of digitization? And if so, what is your 
assessment?
    Ms. Helm. Yes. Several years ago we did a report where we 
looked at the collection storage plan as well as the 
digitization plan and found that the Smithsonian was working 
towards digitization, is committed to it, but it will be a 
long-term effort that will require time and resources.
    Mr. Davis of Illinois. Okay. Well, let's hope it beats the 
Cannon Renewal Project.
    Ms. Helm. Okay.
    Mr. Davis of Illinois. Secretary Bunch, reaching all D.C. 
area K-12 students is a worthy objective in your strategic 
plan. Can you discuss your plans to achieve it? And do you plan 
to extend that reach more broadly across the country, as I 
mentioned in my opening statement?
    Mr. Bunch. I believe that the Smithsonian is one of the 
most important educational institutions in this country and 
that it really needs to play a role, not just in the 
traditional way museums do work, but in nontraditional ways, in 
really figuring out how do we put the resources we have to 
really help improve K-12 education.
    I have made that a cornerstone of my tenure. I have said 
that it is not enough just to bring kids into the Smithsonian, 
what you really need to do is make sure we are helping people 
wrestle with the curricular challenges, helping students get 
the fullest learning journey possible.
    I want to use what we are doing in the District of Columbia 
as a pilot, to test how it is that the Smithsonian can really 
not only help children but excite teachers and give teachers 
mid-career rejuvenation, create opportunities for parents to be 
part of that learning journey for their children.
    What I hope will happen is that the ideas we test, both the 
actual ideas and the virtual ideas that we will use in the 
District, will allow us then to continue to expand the work 
that we already do nationally.
    I am committed to the Smithsonian ultimately being a place 
that influences, enhances, and enriches K-12 education 
throughout the United States.
    Mr. Davis of Illinois. Thank you, both.
    I yield back.
    The Chairperson. The gentleman from Maryland is recognized.
    Mr. Raskin. Madam Chairperson, thank you.
    Welcome, Ms. Helm, and Mr. Bunch. Congratulations, Mr. 
Bunch, on your new book and on your very inspiring and 
successful service as the Director of the National Museum on 
African American History and Culture. And my first question is 
actually about that.
    It has obviously inspired other efforts, as the Chairperson 
was saying, to create the museum on the woman, American women, 
on a Latino museum, an Asian American museum.
    One of the remarkable things about the African American 
Museum is, first of all, I think it is now the most popular 
museum destination. Is that right?
    Mr. Bunch. It is one of the most popular.
    Mr. Raskin. One of them, yeah. But it is a remarkable thing 
when you go over there because you get people coming from all 
over the place, all over the world, all over America, large 
multi-racial, multi-cultural crowds coming in to check it out.
    So I am wondering if you would just reflect for a moment on 
how museums that focus on a certain dimension of the American 
experience can speak universally to everybody in the country 
and how should we think about all of these proposals coming 
forward for other museums similar to that.
    Mr. Bunch. I think the most important thing that we did in 
building the National Museum of African American History and 
Culture was from the beginning saying this was not a museum by 
a community for a particular community, that we said, this is 
an opportunity to understand America through the lens of an 
African American community.
    And what that meant is it became the story for us all, that 
everybody could find themselves in that story, whether they 
were interested in our notions of liberty, our notions of 
citizenship.
    So what I think the major contribution would be is that any 
museum that is created, whether it is a Latino museum or 
women's history museum, that we are not trying to create that 
ancillary story. We are trying to say, this is the best way, 
another way, to understand America. And I think that makes it 
not something that is separate, but part of the glue that helps 
us understand our identity.
    Mr. Raskin. Well, I think you achieved precisely that 
vision in a remarkable way at this museum. It is a window into 
American history for all of us and it deepens everybody's 
appreciation of what America is. I salute that vision and I 
hope it is one that we will continue to realize as we move 
forward with other projects in the future.
    The Arts and Industries Building recently reopened as a 
space for special events. What do you envision as the long-term 
plan for use of this building?
    Mr. Bunch. The Arts and Industries Building is really one 
of my favorite buildings in the Smithsonian, and I think what 
we want to do now is we have put together people working on 
what is the long-term future for that building.
    Right now we are committed to doing a major exhibition that 
will be part of our celebration for our 175th anniversary of 
the Smithsonian in 2021. I think that in the meantime we are 
now looking at what does it mean to rethink the works of the 
Castle building and the Arts and Industries Building and to see 
how we are going to use those.
    At this stage, I have just put people on that and I will 
get briefed, but it is one of my priorities to figure out what 
is the long-term use of the A&I Building and the Castle.
    Mr. Raskin. Okay. And you are getting input from presumably 
the board and other stakeholders?
    Mr. Bunch. What we are doing is we are not only looking at 
what staff thought or the Board of Regents are very involved in 
that. We will do as I always do when we think of long-term use, 
we will reach out to a variety of communities and stakeholders 
to get an understanding of what they want.
    I think it is really crucial for us to recognize that the 
history of the Smithsonian is tied up in those two buildings 
and we want to make sure that they are always there to serve 
the American public.
    Mr. Raskin. Okay. I know about the big revitalization 
project going on with Air and Space. What other major 
facilities projects do you foresee for the Smithsonian in the 
next 5 to 10 years?
    Mr. Bunch. Well, I think the really big ones are the Arts 
and Industry and the Castle, and to figure out what we are 
doing there, and then to really make a determination about what 
the South Mall Master Plan really is, to look at those 
questions.
    The other thing will be beginning to look at a sculpture 
garden for part of the Hirshhorn Museum, to really think about 
how do we make sure The Mall is visitor friendly and that it 
serves as great entrances to all the museums. I think those are 
some of the things we will be looking at in the next several 
years.
    Mr. Raskin. Thank you. I think my time is up.
    I yield back, Madam Chairperson.
    The Chairperson. The gentleman from Georgia is recognized 
for five minutes.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    Thank you both for being here.
    I have always been a huge fan of the Smithsonian, so this 
is a chance that we can engage with you guys to make sure that 
we have plans and policies in place for long-term 
sustainability of this national asset.
    Of course, there are always concerns that rise, challenges 
we must face, and so I appreciate your willingness to step up 
and take the lead and hopefully resolve some of the issues that 
are out there. And there isn't an agency or organization that 
doesn't face some of these issues.
    But I do have some specific questions about some of the 
challenges, especially on the deferred maintenance backlog, and 
I know that that can be--or it is a significant challenge at 
this point.
    So, Ms. Helm, what is the current cost in dollars as far as 
the deferred maintenance backlog today? Do you know?
    Ms. Helm. I believe for fiscal year 2017 it was 
approximately $937 million.
    Mr. Loudermilk. Okay. Getting close to a billion dollars?
    Ms. Helm. Right, approaching a billion dollars.
    Mr. Loudermilk. As far as the timeline, how does this go? I 
mean, how far back are some of the maintenance issues? How long 
have they been out there?
    Ms. Helm. The deferred maintenance backlog has been around 
for a long time and is created by the fact that the National 
Research Council recommends that government agencies spend 
between 2 to 4 percent of the replacement value of their 
buildings and the Smithsonian's budget has been about 1 
percent. So each year the backlog just continues to grow.
    Mr. Loudermilk. Do you know what, if I was to look at the 
list of the backlog, what is the oldest date? Do you know?
    Ms. Helm. I do not know that.
    Mr. Loudermilk. Does it go a decade? Five years?
    Ms. Helm. I could get that information for you.
    Mr. Loudermilk. Okay. I would appreciate it.
    Ms. Helm. I would be happy to.
    Mr. Loudermilk. Secretary Bunch, what is your plan to go 
after the backlog? Are you looking to get more to the 2 to 4 
percent in expenditures?
    Mr. Bunch. I think my goal is to try to be at 2 to 4 
percent, to try to get around at least 2 percent. I would like 
to get 3 percent.
    I think the challenge for us is to figure out how do we 
make sure that when we are looking at our congressional 
appropriation to make sure that we have got money that is going 
to allow us to grow in that direction.
    And also to think maybe creatively more about are there 
opportunities when we are fundraising for the projects that 
people are excited about, is there a way to layer in some 
support for backlog.
    I think that that is what we are going to be looking at. I 
don't have an answer yet, but I will have it soon.
    Mr. Loudermilk. Well, I appreciate anything you do, because 
from a prior business owner's perspective and all this, you 
clean house before you expand. And through the discussions of 
potential new museums, which I am very excited about, I think 
it is important that we kind of get the house clean before we 
look at expanding anymore, because my concern would be further 
expansion just creates more of a backlog unless we address that 
early.
    So I would appreciate anything that you can provide us on 
plans to move forward, because I think as this institution goes 
from a funding mechanism, a solid plan would help us in being 
able to appropriate more toward that.
    I do have some questions on information security since that 
is my background, but first, the $900 million cost for 
renovation for Air and Space Museum. When I just looked at 
that, I thought it had to be a mistake. So I had my staff go 
back and look at it again and, like, no, that is the cost.
    And it just seems very high to me since the cost to build 
the African American Museum was $540 million, the Museum of the 
Bible was $500 million. The Nationals Park construction was 
only $701 million. Trump Tower was $300 million.
    Why such a high cost, almost a billion dollars for 
refurbishment?
    Mr. Bunch. Well, I think, first of all, you know that it is 
often cheaper to build new than to refurbish. I think that part 
of this is that this was also the opportunity to upgrade all 
the systems, to make sure that this is an effective green-like 
museum that we can make.
    Also I think that even though the building was opened in 
1976, in terms of the life of the construction of that time, 
this building has been around a long time.
    And so in essence what we are trying to do is to do almost 
what you said about the deferred maintenance. We want to fix it 
all. We don't want to postpone things so that my next whoever 
follows me will have to wrestle with the Air and Space Museum. 
That is why it is costing what it is.
    Mr. Loudermilk. Okay. I appreciate that.
    I know I am out of time. I will submit my questions for 
information systems security for the record. But I appreciate 
all that you are doing.
    Again, Air and Space Museum, as an aviator, that is one of 
my favorite, most frequented museums, and we thank you for all 
you are doing.
    I yield back.
    The Chairperson. Thank you. The gentleman yields back.
    The gentlelady from California, Mrs. Davis, is recognized 
for five minutes.
    Mrs. Davis of California. Thank you very much, Madam 
Chairperson.
    Secretary Bunch and Ms. Helm, thank you for your leadership 
as well.
    I am so glad you had an opportunity to talk a little bit 
about how the experience of delivering the African American 
Museum of History and Culture informs what you are doing today. 
I still remember that day. It was extraordinary. And I am very 
hopeful. That really makes a difference for all of us and we 
appreciate the fact that you are there.
    I wonder if you could add just a few more thoughts about 
the importance of the treasures that we have on our Mall, the 
Smithsonian, for the young people of our country. I often ask 
students when I go into classrooms if they have been to 
Washington, D.C., before. Maybe if they are by 8th grade, they 
have come, but most often that is not the case. I was just with 
a class the other day. And while that is a local effort, it is 
incredible to me that a large number of our children throughout 
this country never make it here to the capital and to see these 
treasures that we have.
    So I think as we can think more about that and 
collaborating with the local communities, that would be 
helpful. The role of teachers is obviously very important to be 
able to translate that experience for young people as well, if 
you have any thoughts about that.
    The other thing I wanted to ask you briefly is, we are 
talking about the pressure and the need for more museums. I 
mean, there are so many interests that we want represented on 
The Mall. How much space do we have for that? How do you see 
that space as you look at the entire Mall? Are there areas that 
we could redevelop, perhaps, better on The Mall? Where does 
that stand?
    Mr. Bunch. Let me ask the last first. I think that it is 
clear that there is very little space left on The Mall and that 
one of the questions is to begin to think about, what is the 
best use of what we have left? Are there other spaces near The 
Mall that ought to be used that can continue to maybe spread 
the influence of the Smithsonian?
    I understand the power of The Mall. It was really important 
to me that the National Museum be on The Mall. So I think the 
key is to look at the spaces, what can we do with what we have, 
but recognize there are really limited spaces on The Mall.
    I think that from an education point of view, the 
Smithsonian is amazing. I think about in my career holding the 
compass that Lewis and Clark carried when they went across the 
country or looking at the Apollo 11 capsule, and what I 
realized is that we have to find ways to get this around the 
country.
    Part of that is through the traveling exhibitions and all 
the things we tend to do, but also it really is looking at what 
can we do virtually. It seems to me there ought to be a way 
that virtually the Smithsonian can get into every classroom in 
the United States.
    And even simple ideas of helping people get the virtual 
Lincoln's top hat or Lewis and Clark's compass that they can 
make on a 3D printer that allows the teachers in the classrooms 
to talk about the importance of citizenship or exploration.
    So I think the goal that I have challenged the educational 
staff is to say to me, how can we touch every classroom? How 
can we share the wonders of the Smithsonian research, science, 
art, and history? So that is a major commitment to me, because 
I want people, I want children to be made better by the wonders 
of the Smithsonian.
    Mrs. Davis of California. Thank you. Appreciate that.
    I am going to turn back over to the Chairperson. Thank you.
    The Chairperson. The gentlelady yields back.
    The gentleman from North Carolina is recognized for five 
minutes.
    Mr. Butterfield. Thank you, Madam Chairperson.
    Let me thank both of you for your testimony today.
    Dr. Bunch, I want to thank you, particularly, for your 
service, not just to the Smithsonian, but to the country. I 
have got to get used to calling you Secretary Bunch. That is 
going to be a transformation for me. But in any event, I have 
followed your career down through the years and I have said to 
you privately and I will say publicly today thank you.
    Mr. Bunch. Thank you.
    Mr. Butterfield. You have a great challenge in front of 
you, and I am sure those of us on this committee will join 
hands with you and try to make the Smithsonian even better than 
it is. I will certainly do my part.
    But let me just spend just a couple minutes talking to you 
about diversity. You know how strongly I feel about that and we 
have talked about it over the years. Give me some appreciation 
for the workforce, the size of the workforce that is under your 
jurisdiction?
    Mr. Bunch. There are approximately 7,000 people that work 
for the Smithsonian.
    Mr. Butterfield. All based in D.C.?
    Mr. Bunch. No, they are all over the country, whether it is 
people that work out of the Smithsonian Astrophysical 
Observatory in Boston, the people that work at the Smithsonian 
Tropical Research Institute in Panama. In New York City, we 
have----
    Mr. Butterfield. These are Federal employees?
    Mr. Bunch. Federal employees.
    Mr. Butterfield. On your payroll?
    Mr. Bunch. Yes.
    Mr. Butterfield. Okay.
    Mr. Bunch. In essence, the goal for us is to make sure that 
these staff reflect the diversity of America. We are not there 
yet.
    And especially I want to make sure it reflects diversity at 
the senior positions. I want to make sure that we are not just 
looking at the lower introductory positions, but that senior 
curators, leaders of institutions.
    The Smithsonian has done, I think, a very good job on 
issues of gender and leadership. Many of the museum directors 
are now women. I think we have done a less successful job of 
embracing diversity of racial or ethnic minorities in 
leadership positions.
    Mr. Butterfield. So the different layers are senior 
leadership, lower level leadership. Would that be entry level 
type jobs?
    Mr. Bunch. Right, right.
    Mr. Butterfield. What is the middle strata called, what do 
you call that, just career?
    Mr. Bunch. Well, basically, I would say career, career 
staff.
    Mr. Butterfield. And do you collect data on the 
demographics of these different layers?
    Mr. Bunch. We have all that data, and I can make sure that 
we can present that to you.
    Mr. Butterfield. Which category is the strongest and which 
one is the weakest in terms of racial diversity?
    Mr. Bunch. Well, in racial diversity is, quite candidly, at 
the lower levels--guards, securities, low level administration. 
I think that within the levels where it fundamentally shapes 
the Smithsonian--curators, scientists--that is where we are 
working to improve that.
    Mr. Butterfield. What about your vendors? Do you have a 
vendor list?
    Mr. Bunch. We do very well with that. We have a very strong 
supplier diversity program, that whether it is the fact that 
when we built the National Museum of African American History 
and Culture we made sure that minorities, women-owned 
businesses received a higher percentage than ever before. We do 
that throughout the Smithsonian.
    So I am very pleased with that part of the Smithsonian. The 
vendor work that we do really reaches a broad and diverse 
audience.
    Mr. Butterfield. Do you pledge to us that you will continue 
that and try to build upon that?
    Mr. Bunch. There is no doubt about that. That is crucial to 
our success.
    Mr. Butterfield. You mentioned in your earlier testimony 
something about the boards that shape the Institution. I didn't 
quite--I don't quite understand what that means.
    Mr. Bunch. So that each Smithsonian museum has its own 
board. And these are boards that help with fundraising, help 
guide the institute, the different museums, for example.
    What I want to make sure is that we don't forget that they 
need to be made more diverse, that there are opportunities for 
people of color, women, to play a more leading role on some of 
those boards.
    Mr. Butterfield. I guess there are dozens of boards across 
the spectrum?
    Mr. Bunch. Each museum has its board, some of the research 
entities have their own boards.
    Mr. Butterfield. And is that data available?
    Mr. Bunch. Excuse me?
    Mr. Butterfield. Is that data available?
    Mr. Bunch. We can make sure you can have that data.
    Mr. Butterfield. All right.
    Finally, sir, do you provide technical resources to 
community-based groups who want to preserve their history? I 
won't ask you about financial resources because I know you are 
kind of stretched on that, but technical resources.
    Mr. Bunch. We do it on several different levels. Different 
museums do it in different ways. The National Museum of African 
American History and Culture, when I created it, I actually 
created a unit whose job it was to work with local museums, to 
provide training, to provide expertise. So what I am hoping is 
that that is a model that will be picked up by some of the 
other museums within the Smithsonian.
    But we also do a fair amount of training through some of 
the programs we do when we do sites exhibitions. Sometimes 
there is training, reaching out to local communities. So that, 
in essence, we want to do a much better job, a more formal job, 
and I am looking to see how much do we emulate the model that 
we created at the National Museum of African American History 
and Culture.
    Mr. Butterfield. This is exciting. Thank you very much. 
Thank both of you.
    I yield back.
    The Chairperson. The gentleman yields back.
    The gentlelady from Ohio is recognized for five minutes.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    Mr. Secretary, it is nice to see you again.
    Mr. Bunch. Nice to see you.
    Ms. Fudge. Thank you both for your testimony.
    I do want to just recognize Madam Clerk, Cheryl Johnson has 
joined us, who I think came from the Smithsonian.
    It is nice to see you, Madam Clerk.
    Mr. Secretary let me also say it is refreshing to have both 
the Secretary and the Inspector General on the same page. We 
don't hear that an awful lot. So thank you.
    Let me ask a question. You talked about the cost of 
deferred maintenance. I ask you, beyond cost, are any 
collections at risk because of deferred maintenance?
    Mr. Bunch. It is important for us, for me, that we protect 
those collections because that is what is really at the heart 
of the Smithsonian. We have really worked hard to make sure 
that collections are not at risk. We have worked hard to 
identify areas of concern and will continue to do that. When we 
know that if there are collections at risk, we move quickly to 
try to protect them and to give them the proper housing that 
they need.
    I think that the goal will be, however, that we are really 
stretched and we need the resources to continue to do things 
like build new storage pods out in Suitland or out near the 
Udvar-Hazy museum. Those are the kinds of things that are going 
to allow us not to just provide bare maintenance but provide 
the kind of quality care that is at the heart of the 
Smithsonian.
    Ms. Fudge. Do you agree, Madam Inspector General?
    Ms. Helm. Yes. I do think that the collection space plan 
that they developed has that in goal. I think there are 
facilities that have been identified as being at an 
unacceptable level, but I am not aware of collections being at 
risk of immediate harm or anything like that.
    Ms. Fudge. All right. Let me ask this question. We are 
talking about now the revitalization of the National Air and 
Space Museum. What do you do with things like the large pieces 
of those collections while it is underway?
    Mr. Bunch. What we do is, the goal is to try to give the 
public as much access to those collections as possible. So some 
of the large pieces that get moved out to the new storage 
places out in Dulles, and other areas out in Suitland, but we 
try to make sure that there is enough on display so that the 
public is really still engaged and gets a lot of that history. 
We also encourage people to go out to the Udvar-Hazy Center out 
in Dulles, which is where a lot of the larger airplanes are, 
and it is another way to continue that story of understanding 
the history of aviation.
    Ms. Fudge. Okay. So now does your digitization initiative, 
is it going to save physical storage at some point? How is that 
going to work?
    Mr. Bunch. What digitization does is about protecting the 
collections by reducing the use on them, pulling them out. It 
also, however, gets the collections out to a broader possible 
audience. It doesn't reduce the collections we have.
    I think the challenge for the Smithsonian is to realize 
that we are always going to continue to grow the collections. 
What we want to do is make sure that we have got the sort of 
processes to make sure that it is crucially important when we 
collect something and that we have the space and the resources 
to protect it.
    Ms. Fudge. If there were one thing that you would ask us 
today that is your top priority, what would it be?
    Mr. Bunch. Can I get two?
    Ms. Fudge. I will give you two.
    Mr. Bunch. All right.
    I think that my top priority has to be making the 
Smithsonian accessible virtually, to really make sure we can 
educate people around the country and around the globe.
    I think my second priority, candidly, is to find ways to 
address the backlog, to make sure that these amazing facilities 
are protected and made accessible to the American people.
    Ms. Fudge. Thank you very much.
    Madam Chairperson, I yield back.
    The Chairperson. The gentlelady yields back.
    The gentleman from California is recognized for five 
minutes.
    Mr. Aguilar. Thank you, Madam Chairperson.
    Secretary Bunch, you talked a little bit about the creation 
of the National Museum of the American Latino. You are familiar 
with the history. In 2008, President George W. Bush created the 
Commission. The report was completed in 2011. It gave a project 
cost, I am certain at the time, $600 million.
    You mentioned identifying future challenges involved if 
Congress was to move forward and to give you guidance. Right 
now there is authorizing language, as the Chairperson 
mentioned; 179 members in a bipartisan fashion have signed on 
to this bill. I know the sponsor, Mr. Serrano, has worked with 
you on the public-private partnership funding piece, making 
sure that the language was sufficient for your needs.
    What is the timeline from when the bill is signed into law 
to the next steps and to ultimately a completion? If history is 
our guide, what does that look like?
    Mr. Bunch. It took 11 years to build the National Museum of 
African American History once we had leadership, because that 
is really the key, the Director. So I really think that that is 
probably a good framework. We might be able to do some things 
that can shorten it a little. I have got ideas about doing 
that.
    But the challenge of building the staff, building the 
mechanism that allows us to raise the money, getting a better 
sense of what the content is really going to be, bringing on 
people that can help think about the building itself, and 
ultimately looking at what are the long-term resource needs to 
make sure that when it opens we recognize that is the 
beginning, not the end of the process.
    So I think that it is a decade-long process once you 
actually begin by bringing on the director.
    Mr. Aguilar. I appreciate that.
    This year Congressman Serrano is working on language in the 
Interior Appropriations bill that would encourage the 
Smithsonian--report language--to continue exploring the 
creation of the museum and to look to programs, exhibits, 
collections, and public outreach.
    Do you see any problems complying with language that 
continues to give you guidance to move in that direction?
    Mr. Bunch. Not at all. And in fact, I would argue one of 
the ways that you can shorten the period of building a museum, 
if that is where we go, is to really have curators to do 
exhibitions that allow us to begin to get the research.
    One, that gets people excited, and that is part of the key 
to raising the successful funds.
    Two, one of the great challenges is going to be building 
the collection. If we can do work now that will foreshadow some 
of the collection needs actually bring collections into the 
Smithsonian, that will allow us to move this a little quicker.
    Mr. Aguilar. Great. I appreciate it.
    Following up on what my colleague Mr. Butterfield talked 
about, I know you are familiar, in 1994 the Smithsonian 
Institute task force produced a report called ``Willful 
Neglect.'' Since that report the Latinx workforce in the 
Smithsonian has risen 2.7 percent to 10 percent. Unfortunately 
that growth hasn't met the same numbers at the executive level.
    So you started to answer Mr. Butterfield's question about 
the higher levels, curators, scientists, executives. Can you 
talk to me about what is being done to increase the diversity 
at the executive level?
    Mr. Bunch. One of the things that is important to me is, as 
I look at whatever changes, individuals I bring into the senior 
level, I want to make sure that diversity is really at the 
heart of what I am trying to do.
    I would be unbelievably disappointed if I didn't by the end 
of my tenure have a staff that is more diverse. It is a 
challenge in many ways because, one, people never leave the 
Smithsonian. But my goal is to make sure that the Smithsonian 
is made better when it has those diverse voices around the 
table.
    Mr. Aguilar. I appreciate the answer. Thank you so much.
    Thank you, Madam Chairperson.
    The Chairperson. The gentleman yields back.
    All Members have now had an opportunity to ask questions. 
And as I mentioned earlier, the record will remain open for 
five legislative days.
    We would like to thank you both for your testimony here 
today. I will just note that I think I speak for the entire 
Committee of how proud we are of the Institution, of the 
Smithsonian Institute. It is really a jewel that belongs to the 
American people.
    I was just thinking and talking to the Ranking Member, back 
in the mid-1990s, I think former Congressman Vic Fazio was the 
Chairman of this Committee and took the lead to insist that we 
do the funding necessary to repair the Library of Congress and 
the Botanical Gardens.
    Repairs and maintenance are not sexy, but these facilities 
are really held in trust for the American people. I think one 
of the things we need to do is to see whether this is that kind 
of time to work with our appropriators to make sure that we are 
fulfilling our obligation to make sure that these jewels are 
maintained for future generations. Your leadership is very 
important in that regard.
    Unless there are further matters before us on this 
oversight hearing, we thank you. And without objection the 
hearing is adjourned.
    [Whereupon, at 10:09 a.m., the Committee was adjourned.]
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
                          [all]
                          
</pre></body></html>
